HHS/OIG - Audit -"Review of Medicaid Claims Made for 21 to 64 Year Old Residents of Institutions for Mental Diseases in Virginia,"(A-03-00-00212)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims Made for 21 to 64 Year Old Residents of Institutions for Mental Diseases in Virginia," (A-03-00-00212)
October 30, 2001
Complete
Text of Report is available in PDF format (1.03 MB).  Copies can also be obtained by contacting the Office of
Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if controls were in place to effectively preclude the Virginia Department
of Medical Assistance Services (DMAS) from claiming Federal financial participation (FFP) under the Medicaid program for
21 to 64 year old residents of psychiatric hospitals that are institutions for mental diseases (IMD).  We found that
adequate controls were not in place to preclude DMAS from inappropriately claiming FFP.  As a result, from July 1,
1997 through December 31, 2000, DMAS paid Medicaid claims of $2,680,670 including $1,382,079 FFP for 21 to 64 year old
residents of IMDs.  We recommended that DMAS:   (1) refund $1,382,079; (2) change the Medicaid Management Information
System to deny crossover payments to private IMDs; (3) establish procedures to require State IMDs to report IMD admissions
to the Department of Social Services (DSS); and (4) require DSS to suspend Medicaid eligibility for all IMD residents upon
entering an IMD.